Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



   MEDICARE COMPLIANCE
REVIEW OF THE UNIVERSITY OF
  ALABAMA AT BIRMINGHAM
  HOSPITAL FOR CALENDAR
    YEARS 2009 AND 2010



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                           Lori S. Pilcher
                                      Regional Inspector General

                                             October 2012
                                             A-04-11-00080
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary's stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children's Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification (APC).

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

The University of Alabama at Birmingham Hospital (the Hospital) is a 1,017-bed acute care
hospital located in Birmingham, Alabama. Medicare paid the Hospital approximately $380
million for 28,974 inpatient and 174,893 outpatient claims for services provided to beneficiaries
during calendar years (CY) 2009 and 2010, according to CMS’s National Claims History data.

Our audit covered $4,352,532 in Medicare payments to the Hospital for 172 inpatient and 5
outpatient claims that we judgmentally selected as potentially at risk for billing errors. These
177 claims had dates of service in CYs 2009 and 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 139 of the 177 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 38 claims, resulting in overpayments totaling $144,423
and potential underpayments totaling $166,882 for CYs 2009 and 2010. Specifically, 26
inpatient claims had billing errors resulting in overpayments totaling $132,198, and 2 outpatient
claims had billing errors resulting in overpayments totaling $12,225. Additionally, 10 inpatient
claims had billing errors resulting in potential underpayments totaling $166,882.

Overpayments and potential underpayments occurred primarily because the Hospital’s existing
controls did not adequately prevent incorrect billing of these Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   correct and resubmit to the Medicare contractor 28 incorrectly billed claims resulting in
       overpayments totaling $144,423,

   •   correct and resubmit to the Medicare contractor 10 incorrectly billed claims resulting in
       potential underpayments totaling $166,882, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

THE UNIVERSITY OF ALABAMA AT BIRMINGHAM HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it would correct and resubmit to Medicare the identified incorrect claims,
strengthen controls to ensure full compliance with Medicare requirements, and develop
corrective action plans to address our audit findings. The Hospital’s comments are included in
their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Hospital Inpatient Prospective Payment System .................................................. 1
              Hospital Outpatient Prospective Payment System ................................................ 1
              Hospital Payments at Risk for Incorrect Billing ................................................... 1
              Medicare Requirements for Hospital Claims and Payments ................................ 2
              The University of Alabama at Birmingham Hospital ........................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

          BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ............................... 5
                Inpatient Claims With High-Severity Level Diagnosis-Related Group Codes .... 5
                Inpatient Short Stays ............................................................................................. 5
                Inpatient Claims With Payments Greater Than $150,000 .................................... 6
                Total Incorrectly Billed Inpatient Claims ............................................................ 6

          BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ........................... 7
                Outpatient Claims With Manufacturer Credits for Replaced Medical Devices ... 7

          RECOMMENDATIONS .................................................................................................. 7

          THE UNIVERSITY OF ALABAMA AT BIRMINGHAM HOSPITAL
           COMMENTS ................................................................................................................. 8

APPENDIX

          THE UNIVERSITY OF ALABAMA AT BIRMINGHAM HOSPITAL
           COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. All services and items within an APC
group are comparable clinically and require comparable resources. 2

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments identified included payments for claims billed for:

    •   inpatient claims for short stays,

    •   inpatient transfer claims,

    •   inpatient claims with high-severity level DRG codes,

    •   inpatient claims for blood clotting factor drugs,

    •   outpatient claims billed prior to and during inpatient stays,

    •   outpatient claims billed with modifier 59 (indicating that a procedure or service was
        distinct from other services performed on the same day),

    •   inpatient and outpatient claims paid in excess of charges, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.




                                                   2
The University of Alabama at Birmingham Hospital

The University of Alabama at Birmingham Hospital (the Hospital) is a 1,017-bed acute care
hospital located in Birmingham, Alabama. Medicare paid the Hospital approximately $380
million for 28,974 inpatient and 174,893 outpatient claims for services provided to beneficiaries
during calendar years (CY) 2009 and 2010 according to CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,352,532 in Medicare payments to the Hospital for 172 inpatient and 5
outpatient claims that we judgmentally selected as potentially at risk for billing errors. These
177 claims had dates of service in CYs 2009 and 2010.

We focused our review on the risk areas identified during and as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on select risk areas and does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We performed fieldwork at the Hospital from September 2011 through June 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
        Claims History file for CYs 2009 and 2010;

   •    obtained information on known credits for replacement cardiac medical devices from the
        device manufacturers for CYs 2009 and 2010;

                                                 3
   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 177 claims (172 inpatient and 5 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for submitting Medicare claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustment; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 139 of the 177 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 38 claims, resulting in overpayments totaling $144,423
and potential underpayments totaling $166,882 for CYs 2009 and 2010. Specifically, 26
inpatient claims had billing errors resulting in overpayments totaling $132,198, and 2 outpatient
claims had billing errors resulting in overpayments totaling $12,225. Additionally, 10 inpatient
claims had billing errors resulting in potential underpayments totaling $166,882.

Overpayments and potential underpayments occurred primarily because the Hospital’s existing
controls did not adequately prevent incorrect billing of these Medicare claims.




                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 36 of 172 sampled inpatient claims that we
reviewed. Billing errors for 26 inpatient claims resulted in overpayments totaling $132,198.
Additionally, billing errors for 10 inpatient claims resulted in potential underpayments totaling
$166,882.

Inpatient Claims With High-Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” The Manual, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly.

For 1 of 48 sampled claims, the Hospital billed Medicare using an incorrect DRG. The Hospital
stated that the incorrect coding occurred because of human error. As a result, the Hospital
received an overpayment of $2,908.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” The Manual, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly.

For 17 of 107 sampled claims, the Hospital billed Medicare Part A for inpatient stays that it
should have billed as outpatient or outpatient with observation services. In addition, for 1 of the
107 sampled claims, the Hospital billed Medicare using an incorrect DRG code. The Hospital
attributed the incorrect billings and coding to human error.

As a result, the Hospital incorrectly billed 18 inpatient claims and received overpayments
totaling $97,169.

Inpatient Claims With Payments Greater Than $150,000

The Manual, chapter 3, section 10, states that a hospital may bill only for services provided. The
Manual, chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that
Medicare contractors may process them correctly and promptly.

Of the 172 inpatient claims in our sample, the Hospital billed either overstated or understated
charges on 17 claims as described below. 3


3
  Under the IPPS, Medicare makes outlier payments to hospitals when exceptionally costly cases exceed established
thresholds. Overstating or understating charges on IPPS claims reduces or increases the cost outlier.

                                                        5
Overstated Charges

For 7 of the 17 sampled claims, the Hospital billed overstated charges to Medicare that resulted
in overpayments totaling $32,121. The Hospital attributed the overpayments to a lack of
documentation in the patient’s medical records supporting medications administered. The
pharmacy department kept an accurate log of medication prepared; however, nursing staff did
not always document in the patient’s medical record that they had administered the medication.

As a result, the Hospital incorrectly billed 7 claims and received overpayments totaling $32,121.

Understated Charges

For 10 of the 17 sampled claims, the Hospital billed understated charges to Medicare that
resulted in potential underpayments totaling $166,882. The Hospital attributed the
underpayments to insufficient controls for billing untitrated dialysis solution and to a reliance on
a manual process for generating charges for blood-clotting factor. The Hospital billed
understated charges to Medicare for:

   •   nine claims for dialysis solutions that resulted in potential underpayments totaling
       $11,382 and

   •   one claim for blood-clotting factor that resulted in a potential underpayment of $155,500.

Insufficient Controls: Before administering a bag of untitrated dialysis solution, the nursing
staff was required to charge for the solution; however, the nursing staff did not always charge for
the solution as required.

Reliance on a Manual Process: The maximum charge for blood-clotting factor is 99,999 units;
therefore, if more than 99,999 units were administered, the billing department had to manually
add a second line to the claim to account for units above the 99,999 limit. This manual process
was not completed for one claim.

As a result, the Hospital incorrectly billed 10 claims that resulted in potential underpayments
totaling $166,882.

Total Incorrectly Billed Inpatient Claims

In aggregate, the Hospital incorrectly billed 26 inpatient claims and received overpayments
totaling $132,198. Furthermore, the Hospital incorrectly billed understated charges to Medicare
for 10 inpatient claims, which resulted in potential underpayments totaling $166,882.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for two of five sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $12,225.


                                                 6
Outpatient Claims With Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Under 42 CFR § 413.9, “All payments to providers of services must be based on the reasonable
cost of services.…” CMS’s Provider Reimbursement Manual, part 1, section 2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and cost conscious buyer pays for a given item
       or service. If costs are determined to exceed the level that such buyers incur, in
       the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits or payments available under the terms of the warranty
       covering the replaced equipment. The credits or payments that could have been
       obtained must be reflected as a reduction of the cost of the equipment supplied.

For two of the five sampled outpatient claims, the Hospital did not properly bill the claims. For
one claim the Hospital did not obtain a credit for a replaced device that was available under the
terms of the manufacturer’s warranty. Additionally, for one claim the Hospital did not report a
credit received from the manufacturer. The Hospital stated the incorrect billing occurred because
it did not have a process in place to request credits from manufacturers and because of human
error. As a result, the Hospital received overpayments totaling $12,225.

RECOMMENDATIONS

We recommend that the Hospital:

   •   correct and resubmit to the Medicare contractor 28 incorrectly billed claims resulting in
       overpayments totaling $144,423,

   •   correct and resubmit to the Medicare contractor 10 incorrectly billed claims resulting in
       potential underpayments totaling $166,882, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

                                                   7
THE UNIVERSITY OF ALABAMA AT BIRMINGHAM HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it would correct and resubmit to Medicare the identified incorrect claims,
strengthen controls to ensure full compliance with Medicare requirements, and develop
corrective action plans to address our audit findings. The Hospital’s comments are included in
their entirety as the Appendix.




                                               8
APPENDIX
                                           Page 1 of 2

APPENDIX: THE UNIVERSITY OF ALABAMA AT BIRMINGHAM
                HOSPITAL COMMENTS
Page 2 of 2
